<html>
<title> - PRESCRIPTION DRUG ABUSE EPIDEMIC IN AMERICA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   PRESCRIPTION DRUG ABUSE EPIDEMIC 
                               IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,

                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2012

                               __________

                           Serial No. 112-95

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
73-212                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

           Richard Hertling, Staff Director and Chief Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 SHEILA JACKSON LEE, Texas
MARK AMODEI, Nevada                  MIKE QUIGLEY, Illinois
                                     JARED POLIS, Colorado

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 7, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     2

                               WITNESSES

The Honorable Harold Rogers, a Representative in Congress from 
  the State of Kentucky
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
The Honorable Nick J. Rahall, II, a Representative in Congress 
  from the State of West Virginia
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
The Honorable Mary Bono Mack, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
The Honorable Stephen F. Lynch, a Representative in Congress from 
  the State of Massachusetts
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29

                                APPENDIX
               Material Submitted for the Hearing Record

NIH Public Access Study on Opiod Deaths in Rual Virginia.........    45
Prepared Statement of Ameritox, Inc..............................    65
Prepared Statement of Anne McGee, Director, Cabell County 
  Substance Abuse Prevention Partnership.........................    68
Prepared Statement of Greg Puckett, Executive Director, Community 
  Connections, Inc...............................................    70
Prepared Statement of Timothy Bradley, Captain, West Virginia 
  State Police...................................................    85
Prepared Statement of Kimberly Becher, MD; and Kane Maiers, MD, 
  Paul Ambrose Health Policy Fellows, Marshall University 
  Department of Family and Community Health......................    88


                   PRESCRIPTION DRUG ABUSE EPIDEMIC 
                               IN AMERICA

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr., (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Marino, 
Gowdy, Adams, Conyers, Scott, and Jackson Lee.
    Staff present: Caroline Lynch, Majority Chief Counsel; 
Arthur Radford Baker and Tony Angeli, Majority Counsel; Ron 
LeGrand and Ashley McDonald, Minority Counsel; Lindsay 
Hamilton, Clerk; and Veronica Eligan.
    Mr. Sensenbrenner. The Subcommittee on Crime will come to 
order. Without objection, the Chair will be authorized to 
declare recesses during votes in the House.
    The Chair yields himself 5 minutes, in order to make an 
opening statement.
    Today's hearing examines the subject of prescription drug 
abuse in America. According to the most recent data from the 
U.S. Centers for Disease Control and Prevention, legal and 
illicit drugs killed almost 40,000 people nationwide in 2009. 
Over 100 people die from drug overdoses in the United States 
every day.
    Nearly 3 out of 4 prescription drug overdoses are caused by 
prescription painkillers, also called opioid pain relievers. 
Common examples of these painkillers are Vicodin, Percocet, 
OxyContin, and Demerol.
    In 2008, there were nearly 15,000 deaths from prescription 
painkiller overdoses. For every one of these deaths, there are 
10 admissions for drug abuse treatment, and 32 emergency room 
visits for misuse or abuse of prescription drugs. That amounts 
to over 475,000 emergency room visits per year, a number which 
has doubled in just the last 5 years.
    Prescription painkillers work by decreasing the perception 
of pain. These powerful drugs can create feelings of euphoria, 
cause physical dependence, and frequently lead to addiction. 
Prescription painkillers also slow down a person's breathing. A 
person abusing prescription painkillers might take increasingly 
larger doses to achieve a euphoric effect. These larger doses 
can cause breathing to slow down so much that breathing stops, 
resulting in a fatal overdose.
    Very few prescription drugs involved in overdoses come from 
pharmacy theft. The vast majority come from physicians' 
prescriptions obtained by one person and sold or given to 
another. More than 3 out of 4 people who misuse prescription 
painkillers get their drugs from someone else. For the past few 
years, individuals who doctor shop, or seek care from multiple 
physicians, but fraudulently pretend to be in pain, have been a 
primary source of diverted prescription drugs.
    The law enforcement officials in Florida, once the 
epicenter of prescription drug diversion, have left other 
States to initiate expensive enforcement programs, as the so-
called pill mills migrate across the country.
    Prescription drug abuse has been an epidemic for much too 
long. Some of the more notable people who have died from 
prescription drugs include Marilyn Monroe, Bruce Lee, and Elvis 
Presley. Even former Indiana Senator Edward A. Hannegan 
overdosed on morphine in 1859. In December of 2010, a 13-year-
old Utah boy died after stealing a bottle of OxyContin from a 
kitchen counter of a friend's house. He took all the pills in 
the bottle, except one, and died in his sleep. Famous or not, 
no one is immune from the grip of prescription drug overdose.
    This hearing will explore the growing issue of prescription 
drug abuse in our Nation. We have here today four distinguished 
Members of Congress, who have dedicated their efforts to stop 
prescription abuse in America. I look forward to hearing about 
their legislative proposals and other efforts to address a 
serious national challenge. And I would like to thank our 
witnesses for participating in today's hearing.
    It is now my pleasure to recognize for his opening 
statement, the Ranking Member of the Subcommittee, the 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, 
prescription drug abuse is a serious problem. The number of 
overdose fatalities has increased dramatically over the recent 
years. I must admit, though, Mr. Chairman, I am puzzled as to 
the purpose and usefulness of today's hearing. I am used to 
hearings being an opportunity for witnesses to put forth 
varying views regarding an issue or issues before us, with the 
opportunity to question such witnesses to gain a keener insight 
and understanding of the issues.
    We would then have a legislative hearing for further input 
and analysis, including legal analysis, and ensuring that we 
have constitutional and effective legislation. While I have no 
doubt that our colleagues who are witnesses today will provide 
helpful information, I anticipate that they will discuss the 
bills that they have sponsored or cosponsored, which makes them 
advocates for the bills, and limits us to one side of the 
debate on the issues raised by those bills.
    Therefore, I trust and also ask that this hearing not serve 
as the only basis for any Judiciary Committee or other 
consideration of legislation that we will hear about, but 
merely serve as a traditional opportunity we give Members, on 
occasion, to appear before us to present their legislation.
    The bills I anticipate my colleagues will discuss as 
witnesses include H.R. 1316, 1065, 1925, and 2119. To the 
extent that they provide additional education, training, and 
research on safer administration and use of prescription drugs, 
I am inclined to believe that they may contribute to 
effectively addressing the problem. However, to the extent that 
they impose congressionally mandated restrictions on access to 
legitimate medications and business-as-usual draconian 
increases in Federal penalties, I am inclined to believe that 
they will be counterproductive.
    Such approach is not likely to be successful, as our 
efforts to effectively address elicit drugs. They will lead to 
over criminalization, over federalization, and cause many 
people the laws purport to protect to end up with unjust and 
inflexible prison terms, such as the mandatory minimums, which 
one of the bills calls for.
    Mandatory minimums have been proven to be a waste of the 
taxpayers' money, and violate common sense, when compared to 
traditional sentencing. And I would ask unanimous consent, Mr. 
Chairman, to introduce the Rand study that points this out.
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Scott. When we think of a pill mill operator dispensing 
death and destruction on a mass scale, we may conclude that no 
punishment is too great, but without definition of what limits 
the application of such person to such circumstances, the, 
quote, Pill mill operator may be a college student in a dorm 
room, with a bunch of pills given to his dorm mates.
    What has proven to work best to address drug abuse, in 
general, including prescription drug abuse are evidence-based 
solutions aimed at preventing drug abuse addiction, injury, and 
death, rather than inflexibly rushing to increased penalties, 
and restrict legitimate excess to prescriptive drugs.
    We should not continue to take the same approaches, hoping 
for different results. I am not saying that we should not 
punish lawmakers, but we are already using the criminal justice 
system as much as reductively can be used. We now need to focus 
on prevention and early intervention.
    There are innovative evidence-based approaches that are not 
likely to be discussed today. One is the use of Naloxone. That 
is a lifesaving medicine used to reverse opiate-based drug 
overdoses. It has been FDA approved since 1971, and is the 
first line of treatment for paramedics and emergency room 
physicians who encounter an opiate overdose victim.
    It presents no potential for abuse, because it has no 
pharmacological effect. It has no effect if it is taken by a 
person who does not have opiates in their system. It takes as 
little as 2 minutes to start working, and provides a 30- to 90-
minute window to call for medical assistance during a drug 
overdose.
    Drugs that can be reversed are heroin, OxyContin, 
methadone, Vicontin, and several other drugs. If we are 
concerned about drug overdose deaths, we should be considering 
this as one of the suggestions.
    The second thing we need to consider, Mr. Chairman, are a 
911 Good Samaritan law. The chance of surviving an overdose 
like that, of surviving a heart attack, depends greatly on how 
fast one receives medical treatment. Witnesses to heart attacks 
rarely think twice about calling 911, but witnesses to an 
overdose often hesitate to call, or simply don't make a call, 
because they fear police involvement.
    People using illegal drugs often fear arrest, even in cases 
where they need professional and medical advice, or assistance 
for a friend or family member. The best way to encourage 
overdose witnesses to speak up and call 911 is to provide some 
kind of immunity to those that make such calls.
    Mr. Chairman, such legislation does not protect people from 
arrest for other offenses, such as outstanding warrants or 
other crimes, but this policy protects only the caller and the 
overdose victim from arrest and prosecution, simply for calling 
911. Several State legislatures, including New York, New 
Mexico, Washington, Illinois, and Connecticut have passed 911 
Good Samaritan laws, and Congress should consider doing the 
same.
    For the reasons stated above, Mr. Chairman, I agree with my 
colleagues that prescription drug abuse is an issue about which 
we should be concerned. Anyone who has a friend that is a 
physician or a dentist will recite patients that present with 
symptoms that call for these drugs, and they go doctor to 
doctor, shopping, and we need to do something about those who 
will actually prescribe to those patients. But we should not 
rush to enact such legislation without thorough assessment of 
the effective options we have before us, and I certainly do not 
agree that imposing more severe mandatory minimums on 
physicians and pharmacists, who provide legitimate medications, 
would be a good use of our time or efforts.
    Mr. Chairman, I would ask, also, unanimous consent to enter 
into the record a letter to us from the Drug Policy Alliance.
    Mr. Sensenbrenner. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. It is now my pleasure to introduce 
today's witnesses.
    Hal Rogers has represented the Fifth District of Kentucky 
since 1981. He currently serves as Chairman of the House 
Appropriations Committee, of which he has been a Member for 29 
years. He received both his bachelor of arts and LLB from the 
University of Kentucky.
    Congressman Nick Rahall has represented the Third District 
of West Virginia since 1976. He currently serves as the Ranking 
Member of the House Transportation and Infrastructure 
Committee, and received his bachelor of arts from Duke 
University in 1971.
    Mary Bono Mack has represented the 45th District of 
California since 1998. Ms. Bono Mack sits on the House Energy 
and Commerce Committee, and serves as Chairwoman of the 
Subcommittee on Commerce, Manufacturing, and Trade. She 
received her BFA from the University of Southern California in 
1984.
    Congressman Stephen Lynch has represented the Ninth 
District of Massachusetts since 2001. He currently sits on the 
Financial Services Committee, and the Committee on Oversight 
and Government Reform, where he serves as Ranking Member of the 
Subcommittee on Federal Workforce, U.S. Postal Service, and 
Labor Policy. He received his bachelor of arts degree from 
Wentworth Institute of Technology and his master in public 
administration in 1998, from Harvard.
    Without objection, all of the witnesses' written statements 
will be entered into the record in their entirety. And I ask 
that you please summarize your testimony in 5 minutes or less. 
And we will start out with Congressman Rogers, since I kind of 
respect seniority.

 TESTIMONY OF THE HONORABLE HAROLD ROGERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF KENTUCKY

    Mr. Rogers. I thank you, Mr. Chairman. Chairman 
Sensenbrenner, Ranking Member Scott, Mr. Gowdy, and other 
Members of this great Committee, thank you for granting me a 
few minutes to speak on an epidemic that quietly began in rural 
parts of Kentucky, West Virginia, and Virginia, one doctor at a 
time, and now grips every corner of our great Nation in 
prolific fashion. As you will no doubt hear from the panelists 
and fellow Members of the Congressional Caucus on Prescription 
Drug Abuse, the statistics about this problem speak volumes.
    In 2010, Mr. Chairman, 254 million prescriptions for 
opioids were filled in the U.S. That is enough painkillers to 
medicate every single American adult around the clock for a 
month. ONDCP has identified prescription drugs as the fastest 
growing drug problem, easily eclipsing cocaine and heroin 
abuse.
    Our military soldiers are coming back from war hooked on 
these pain pills. In the last 2 years, over 150 soldiers have 
died from overdoses. In my home state, we are losing about 82 
people a month to prescription drug abuse. More than car 
crashes. Our medicine cabinets are more dangerous than our 
cars.
    But statistics are just numbers. The four of us on this 
panel each have been touched in a personal way by this tragedy. 
In some counties in my district, Mr. Chairman, 50 percent of 
all children are living in a home without their parents, over 
half, in large part, because of prescription drug abuse.
    I have met with single moms struggling to get through drug 
court, kids living with foster parents, unsure of where their 
real parents are. We have lost mothers, grandfathers, police 
officers to this scourge. My home county sheriff, Sam Catron, 
community leader, personal friend, dedicated public servant, 
was assassinated, because of his pursuit of prescription drug 
traffickers. A tragic loss. My field representative's nephew, a 
physician in my district, was shot down, senselessly, by a 
disgruntled drug abuser unable to get his fix.
    The most dangerous job in my district? The driver of a 
delivery truck, UPS, FedEx, carrying drugs by mail. I suspect 
my colleagues have similar stories that they would share. This 
epidemic touches big city movie stars and rugged mountain men, 
and it has to stop.
    We all recognize that this problem will require a 
coordinated multi-pronged approach that incorporates law 
enforcement, treatment, education, and research. I have worked 
closely with Congressman Frank Wolf, to stand up a leading 
grant program in the Department of Justice, which supports 
State-run prescription drug monitoring programs. PDMPs monitor 
the sale and purchases of controlled substances, bridging the 
gap between legitimate medical need and potential misuse.
    Since 2002, we have seen the number of States with 
authorized PDMPs triple from 15 to 48. That is a huge 
accomplishment, but our work is nowhere near done. The next 
challenge will be facilitating the secure interstate exchange 
of data among these PDMPs, so we can eliminate once and for all 
the doctor shopping which has fueled the pill pipeline around 
our country.
    In the next few weeks, I plan to introduce legislation to 
support the DOJ in opening up lines of communications between 
States. At the appropriate time, I would request that you give 
this bill, Mr. Chairman, your immediate consideration.
    I also helped to establish an organization in my 
congressional district called Operation UNITE, standing for 
Unlawful Narcotics, Investigations, Treatment, Education. It is 
a bright star in our charge to empower our youth and create an 
anti-drug culture, and knock out abuse for good. So far, on the 
law enforcement side of that organization, it covers some 42 
counties. Those undercover agents, some 30 of them, have sent 
to the prison around 4,000 pushers, in just my district.
    UNITE, with its focus on investigations, treatment, and 
education, is a fantastic model, ripe for replication around 
the country. Operation UNITE is the lead sponsor for the 
national RX drug summit later this spring in Florida.
    Collectively, Ms. Bono Mack, Mr. Rahall, Mr. Lynch, and 
others have introduced a number of bills focused on law 
enforcement, prescriber education, and research that would help 
to curb the rising tide of abuse. Many of them have been 
referred to this Subcommittee.
    While I appreciate the opportunity to elevate this issue, 
which continues to plague my people and communities around the 
country, I would much rather see your Subcommittee mark up 
these bills, move the ball forward, and take decisive action to 
end this debilitating drug problem. And I stand ready, Mr. 
Chairman, Members of the Committee, willing and able to assist 
you in any way that you might request.
    [The prepared statement of Mr. Rogers follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much, Mr. Rogers. And I 
understand that you have an appropriations meeting to go to. 
So, I think it is best we excuse you. But don't forget the 
appropriation for our Subcommittee for our Subcommittee, 
please. [Laughter.]
    Mr. Rogers. Rest assured, Mr. Chairman.

TESTIMONY OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman. I appreciate the 
opportunity to be before your distinguished Committee today. 
And while I do outrank Mr. Rogers in seniority, I certainly 
agree with you yielding to him first, as the Chairman of the 
Appropriations Committee, and my dear friend and neighbor from 
across the river, in my district.
    Mr. Sensenbrenner. Praise will get you a long way, my 
friend.
    Mr. Rahall. I appreciate that, Mr. Chairman. And I 
certainly associate myself with his testimony, and commend him 
for his efforts in organizing UNITE, to which he referred in 
his testimony. I appreciate the efforts of my colleague from 
California, Ms. Bono Mack, and from Massachusetts, Mr. Lynch.
    This is an issue that crosses all partisan lines, 
philosophical lines, class lines, every line in our society. 
This issue crosses and affects all of us.
    I will be presenting testimony to the Subcommittee on 
behalf of law enforcement officials from my district, 
healthcare professionals, and community leaders. And I am sure 
this Subcommittee will make this testimony public in our 
continued efforts to educate the public and the American people 
as to this tremendous epidemic that faces all of us.
    It was once described as America's silent epidemic, but it 
can now be openly witnessed any hour, any day, or any night on 
countless street corners across the country. It is the 
crippling epidemic of prescription drug abuse that we are 
facing. And every day we face new stories and reports of 
overdoses, deaths, accidents, families torn apart by the 
vicious cycle of prescription drug abuse.
    Headlines such as this, dealing with addiction in McDonough 
County, in my district. These appear every day in every 
newspaper. And believe you, me, they are touching stories about 
how these communities are trying to deal with this vicious 
cycle.
    Unlike cocaine or heroin, as Mr. Rogers has said, 
prescription drugs are legal, frequently prescribed by caring 
physicians, lead by the principle oath of ``First, do no 
harm.'' Yet, alarming statistics show that children and adults 
are blind to the harmful consequences of these drugs. Even as 
they become addicted, paying upwards of $150 per pill to buy 
them on the black market.
    Distressingly, my home State of West Virginia has our 
Nation's highest rate of drug-related deaths. In fact, between 
2001 and 2008, more than 9 out of 10 of those deaths involved 
prescription drugs. And incredibly, as Mr. Rogers has, again, 
pointed out, drug overdoses now kill more West Virginians than 
car accidents.
    But the alarming use and deaths by prescription drugs is 
not just in West Virginia. As our other distinguished Members 
will testify, it is across this country. And I could go into 
the figures, Mr. Chairman, but you have those figures as well, 
about what drug overdose death rates are in this great country, 
how they have tripled since 1990, and have never been higher in 
our Nation's history.
    I have met numerous times with law enforcement, community 
organizations, educators, physicians, and many more of my 
constituents. We have had drug summits, and we will continue to 
have networking processes in which we try to involve all 
aspects of our community, and to involve those that are 
personally affected, to get them to get to communicate. If they 
don't want to openly, at least at these networking seminars, 
with those law enforcement officials with whom, perhaps, they 
have been afraid to have contact in the past, but now find a 
forum, and find other people in like circumstances as them, and 
which their fear is no longer preventing them from coming 
forward and telling what is happening on the streets, and how 
they feel the problem can be addressed.
    So, these networks are important. This hearing is vitally 
important. We must strengthen drug diversion, educate our 
children and adults on prevention, work with the medical 
community on addiction and pain treatment, and treat and 
rehabilitate those that are affected by this vicious addiction 
before they succumb to the death spiral.
    There are a number of pieces of legislation I and my 
colleagues have joined in cosponsoring. This Subcommittee is 
certainly aware of those. And I leave it in your wisdom to join 
these bills, perhaps, or to pick, as you see as most 
appropriate, which bills should make it to the floor of the 
House of Representatives. But many bills will establish 
mandatory physician and consumer education, as well as 
authorizing Federal funding to help States create and maintain 
prescription drug monitoring programs that all States can 
access.
    This is one of the bills that I have introduced. It would 
set up a uniform system for tracking painkiller-related deaths, 
helping States and law enforcement personnel to be able to 
manage and report data. The West Virginia State Police, our 
attorneys general, and even physicians all consistently stress 
the need to access a prescription drug monitoring system that 
is shared between State lines and updated in real time.
    So, Mr. Chairman, I urge you and this Subcommittee to 
consider and move forward on legislation that encompasses the 
provisions I have mentioned, and many others. Let us act with 
dispatch and compassion, with an acute understanding of the 
enormity of the challenge before us.
    I conclude by thanking you once again for conducting this 
hearing, and allowing me and my colleagues to be with you.
    [The prepared statement of Mr. Rahall follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much, Mr. Rahall.
    Ms. Bono Mack.

TESTIMONY OF THE HONORABLE MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Bono Mack. Thank you, Mr. Chairman. I am honored to be 
here with my colleagues, as you hold this critically important 
hearing on the growing and deadly dangers prescription drug 
abuse poses to our Nation.
    One incident last year, in particular, graphically captures 
the seriousness of this issue. On June 19th, in Medford, New 
York, a man walked into a pharmacy and murdered four people for 
11,000 tablets of Hydrocodone. One of those gunned down was a 
33-year-old customer, who was just engaged to be married. 
Instead, she was buried in her wedding dress. A 17-year-old 
pharmacy employee was also killed, and later buried in her prom 
dress, along with her high school diploma.
    This senseless tragedy is just one example of a growing 
wave of drugstore robberies by prescription drug addicts. But 
it is also part of a larger rapidly escalating struggle 
nationwide against prescription drug abuse and addiction, which 
is expected to claim the lives of nearly 30,000 Americans this 
year. Just last weekend, I met in California with dozens of 
parents who have lost children to this horrible epidemic.
    Two classes of medicines, painkillers, and insomnia and 
anxiety drugs, are responsible for about 70 deaths and nearly 
3,000 emergency room visits every day. That is right, a day. 
And these are truly stunning numbers.
    But what is very insidious is the way these powerfully 
addictive narcotic prescription drugs quickly turn people, 
without any real emotional or physical problems into desperate 
people suddenly facing life-or-death struggles. Few things are 
more destructive.
    According to the CDC, drug overdose is now the leading 
cause of injury death in the United States, not just in West 
Virginia, but in the United States, in large part due to 
prescription drug abuse. It is not hard to understand why. 
Today, some 12.5 million Americans regularly abuse prescription 
drugs, and the problem, as I have said, is growing rapidly. 
There are approximately 7,000 new abusers every day, many of 
them teenagers and young adults.
    This alarming trend, now a health epidemic, according to 
CDC, is taking a huge toll on society. Today, the abuse of 
prescription drugs, especially painkillers, stimulants, and 
depressants, is the fastest growing drug problem in America.
    As Chairman of the House Subcommittee on Commerce, 
Manufacturing, and Trade, which has jurisdiction over consumer 
protection, I have made combating prescription drug abuse a top 
priority. I believe there needs to be a national awakening 
about the threat this alarming epidemic poses to our families 
and to our communities. Simply put, we are in the midst of an 
American tragedy.
    What can we do? For starters, we must do a better job of 
monitoring and limiting access to prescription drugs containing 
controlled-release oxycodone hydrochloride, including the 
popular painkiller and killer, OxyContin.
    Originally, OxyContin was intended to be prescribed only 
for severe pain, as a way to help patients dealing with last-
stage cancer and other severe illnesses. Today, however, more 
and more people across America are prescribed OxyContin, as 
well as other generic oxycodone drugs for less severe reasons, 
clinically known as moderate pain, greatly expanding the 
availability and potential for abuse of these powerful 
addictive narcotics. Someone with a toothache or a sore knee 
should not be prescribed a potentially addictive painkiller.
    Clearly, expanded public education plays a role in 
addressing the problem, but we are not going to make any real 
progress until we limit access to these powerful narcotic 
drugs, and ensure that only patients in severe pain can obtain 
them.
    We must also improve prescriber education by getting 
doctors, dentists, nurse practitioners, and other prescribers 
up to speed on the dangers of addiction. Today, I have 
legislation pending in Congress, the Ryan Creedon Act, H.R. 
2119, to accomplish this goal.
    The pervasiveness of prescription drug abuse made national 
headlines when Federal, State, and local law enforcement 
agencies, led by the DEA, cracked down on so-called pill mills 
in Florida, where painkillers were routinely dispensed just 
like M&Ms from a gumball machine.
    Congress needs to make it much more difficult for these 
rogue pain clinics to operate, and we should treat offenders 
like any other street drug dealer. By better coordinating the 
efforts of local, State, and national agencies, and by reducing 
the supply of highly addictive opioid painkillers, I am 
convinced that we can eventually save thousands of lives, and 
spare millions of American families from the heartache of 
addiction. Mr. Chairman, no child should ever be buried in a 
prom dress again, because we ignored this problem.
    And I just want to say, in closing, that this past weekend, 
when I met with these parents, a number of them spoke about a 
Dr. Lisa Tseng, in Rowland Heights, California, who is being 
charged for three counts of murder for supplying prescription 
drugs to young men, who all overdosed. These parents went and 
confronted the doctor, and she showed absolutely no remorse, 
whatsoever. And I think we should do all we can to ensure she 
is put away for a very, very long time, if she is found guilty.
    So, thank you very much for allowing me to testify today.
    [The prepared statement of Ms. Bono Mack follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you very much.
    Mr. Lynch.

 TESTIMONY OF THE HONORABLE STEPHEN F. LYNCH, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Lynch. Thank you, Mr. Chairman, and Ranking Member 
Scott, for your kindness in allowing us to testify on this 
important issue.
    My colleagues have told the story of drug abuse in America 
today, but I do want to amplify the issue that Ms. Bono was 
speaking about, and that is OxyContin. I will associate myself 
with the remarks of the 3 previous speakers, and rather than 
take my whole 5 minutes, I just want to offer a couple 
thoughts.
    Number one, this OxyContin is so powerful, it is so 
powerful that in a very limited period of time a person who is 
prescribed this becomes addicted. And we have seen stats now 
that 99 percent of addicts who are involved with heroin, that 
are in facilities today in the United States, started on 
OxyContin. And the pattern is that they stay on OxyContin until 
they are financially unable to do so, and then they switch over 
to heroin, which is much, much cheaper.
    But when you allow a company to create a product that is so 
powerfully addictive that in a very short time they create 
customers for life, that is a very troubling situation. It got 
so bad in my district that I had to create, well, a residential 
rehab facility, first, for boys, and then later for girls, 
because these kids are getting addicted so young, there is 
nowhere else to send them. We didn't have any adolescent rehab 
facilities in my State. So, we had to create two.
    We have a situation now where Perdue Pharma lost their 
exclusivity, and now OxyContin is going to go generic. This is 
tremendously powerful. And think about this, the profits here 
are enormous. We are creating a national healthcare system that 
will allow all of these people to continue to financially get 
the support from these pill mills, the drug from these pill 
mills, having the American taxpayer contribute to that. So, 
this is a very, very dangerous situation.
    And I noticed that on March 1, OxyContin was actually 
pulled from the shelves in Canada. That is according to the 
Toronto Star and the CBC news. I sponsored legislation here in 
Congress several years ago to remove OxyContin from the market. 
But, let's face it, there are so many drug company lobbyists up 
here that that bill didn't have a prayer, because the 
pharmaceutical company lobbyists outnumber Members of Congress 
probably 7 to 1.
    We have a serious problem here. And I commend you for 
giving us the time here to try to address it. And I commend my 
colleagues for the fights that they are making in their own 
districts, and now, hopefully, we will be able to collectively 
use our experience to push this issue nationally.
    So, I thank you for your time. I appreciate it. And I yield 
back the balance of my time.
    [The prepared statement of Mr. Lynch follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Sensenbrenner. Thank you, Mr. Lynch.
    I would like to thank all of the Members of Congress who 
took time out of their schedules to come and testify here, as 
well as the Members on the Subcommittee who have come and 
listened to all of these graphic stories. And I am sure that 
this is just the tip of the iceberg. This is a very serious 
issue. It is one that needs to be addressed, and it needs to be 
addressed in the proper manner.
    Does the gentleman from Virginia have anything else he 
wants to say or to insert into the record?
    Mr. Scott. Yes, Mr. Chairman. Another Rand study showing 
that demand investments work better than supply control.
    Mr. Sensenbrenner. Without objection, the material is 
inserted.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Conyers. Mr. Chairman, can I congratulate you on 
starting our inquiry in this matter with Members of Congress 
who have some great and different experiences about this 
problem? And I thank you for starting it.
    Mr. Sensenbrenner. Well, I thank the Chairman emeritus. I 
am always happy to accept congratulations. They mean more from 
that side of the aisle than my own. [Laughter.]
    So, again, thank you very much. And without objection, the 
Committee stands adjourned.
    [Whereupon, at 10:36 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

              Prepared Statement of Anne McGee, Director, 
          Cabell County Substance Abuse Prevention Partnership
    My name is Anne McGee and I have been the director of the 
Cabell County Substance Abuse Prevention Partnership, a 
coalition of concerned individuals, agencies and organizations 
for the past six years. We are located in my hometown of 
Huntington, WV which is located on the Ohio River and borders 
Kentucky and Ohio. The single biggest change in my hometown, in 
my lifetime, has been the devastation wrought by the ``drug 
problem.'' When the Cabell County Substance Abuse Prevention 
Partnership was founded in 2006, we thought that crack cocaine 
being brought in from Detroit was the main problem. As we 
gathered data and studied the problem, we learned that crack 
may be the drug that garnered the headlines and the attention 
of law enforcement, but far more disturbing and pervasive was 
the non-medical use of prescription drugs. Our teenagers were 
reporting increasing use of prescription drugs; the lines at 
the for profit methadone clinic every morning were out the 
door; drug overdose fatalities were reaching record highs; 
obstetricians were reporting more addicted patients; and 
reports of drug seekers in the emergency rooms were a daily 
occurrence.
    In 2007, we held a roundtable discussion for healthcare 
providers to discuss the data we had gathered regarding 
prescription drug abuse. The consensus from those in that 
earliest discussion was that the overprescribing of 
prescription pain relievers and benzodiazepines by the local 
medical community was a major part of the problem. We followed 
up with a community wide drug summit where we included all 
sectors of the community. We learned that not only was 
overprescribing a problem, but it was far more complicated: 
prescription drugs and the selling of those drugs by the 
patient on the black-market was supplementing the incomes of 
many living on fixed incomes; that patients have unrealistic 
pain expectations and demand and expect pain free recuperation 
from injury or surgery; that the Appalachian culture promotes 
and supports the sharing of prescription drugs among friends 
and family. And that our children were diverting medications 
prescribed to the adults in their lives for both medical and 
non-medical purposes. Our schools reported that many of the 
expulsion hearings were for students caught bringing 
prescription drugs to school. Local property crime rates were 
increasing throughout the county and copper and other metal 
thefts were rampant. Then the Journal of American Medical 
Association published the findings of a CDC study showing WV 
had the highest death rates in the nation for prescription drug 
overdose. Fatality rates began to skyrocket across the nation 
with WV leading the charge with greatest number of fatalities 
and Cabell County having some of the highest mortality rates in 
the state.
    As we focused on our youth, we realized there were no 
evidenced based strategies or programs that focused on 
preventing prescription drug abuse, we also knew from community 
readiness assessments that the community as a whole had little 
or no awareness of the growing prescription drug abuse problem, 
unless and until it struck too close to home. We took the 
lessons learned in preventing youth use of other legal drugs 
like alcohol and tobacco and we started with general awareness 
strategies combined with attempts to limit youth access to 
prescription drugs.
    We recruited a few physicians to our cause and they drafted 
a letter on the coalition's behalf to every healthcare provider 
with prescribing privileges in Cabell County, sharing our data 
and urging and encouraging the use of the WV Board of Pharmacy 
Controlled Substances Monitoring Database. We conducted 
awareness presentations throughout the community. We offered 
trainings to nurses, teachers, coaches, parents and 
grandparents. We conducted social marketing campaigns and held 
dozens of public forums and summits; and we recruited 
volunteers and coalition members along the way. We have 
involved the media in every one of our efforts and we have seen 
community readiness increase and a slight decrease in the 
percentage of students reporting the non-medical use of 
prescription drugs.
    Knowing that limiting access is a key strategy in reducing 
youth substance use, we have sponsored and promoted 
prescription take back events collecting over 500 pounds of 
unwanted medications in the past year. We have partnered with 
the local hospital to provide information to local senior 
citizens regarding medication safeguarding and disposal. We 
have sponsored programs for the local medical society and we 
have talked to every elected official who will listen.
    Prescription drug abuse is destroying southern West 
Virginia. The statistics and data support the severity of the 
problem. Unlike illegal drugs, prescription drugs are subject 
to regulation and control. Community efforts like the Cabell 
County Substance Abuse Prevention Partnership can only do so 
much in reducing the abuse and misuse of these substances. We 
need stronger and better controls over controlled substances. 
We are losing our children, our work force, and our quality of 
life to an epidemic that is 100% preventable.




                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

 Prepared Statement of Kimberly Becher, MD; and Kane Maiers, MD, Paul 
Ambrose Health Policy Fellows, Marshall University Department of Family 
                          and Community Health
    Drug abuse in Southern West Virginia has an effect on our 
daily practice of medicine. As family medicine residents we are 
not only exposed to drug-seeking behavior, but see the long 
term effects of drug abuse in our patient population. Because 
we are new providers in the community, our continuity clinics 
are targeted by patients requesting controlled substances for 
recreational use. These visits not only take away slots in 
which we could be treating legitimate medical problems, they 
frustrate us as providers. We chose to be family physicians 
because we have a genuine desire to improve the health outcomes 
of our communities and we sincerely value the physician-patient 
relationship. We work hard to develop rapport and do not like 
to disappoint our patients. Despite the level of compassion and 
professionalism displayed as we deny unreasonable requests for 
pain medication, many visits with drug-seeking patients end 
with aggression, anger, and occasional threats of violence 
toward the provider. On more than one occasion a patient has 
revealed a weapon in our office.
    Unfortunately, the most difficult of cases involve patients 
with progressive chronic disease that is unable to be properly 
addressed due to the patient's fixation on obtaining opiates or 
benzodiazepines. These patients emotionally drain us as 
providers. We spend the most time on these visits and make the 
least progress in decreasing the patient's morbidity and 
mortality despite our attempts at intervention. This patient 
population contributes a disproportionate amount to the cost of 
health care in West Virginia. This is not only limited to 
emergency room visits but also to the complications of 
untreated comorbid conditions that require hospitalization for 
a population that is largely uninsured or receiving Medicaid. 
The addiction circle is not limited to the patients we see in 
the office. To the unemployed, obtaining a thirty-day 
prescription for oxycodone will more than adequately pay their 
bills. One resident reports admitting at least one patient to 
the ICU per night who overdosed on prescription drugs they were 
not prescribed.
    We need help combating this epidemic in Southern West 
Virginia. We need a national controlled substance monitoring 
program that is real time. Patients routinely fill 
prescriptions in Kentucky and Ohio, but we have also had 
trouble with more organized patients travelling to pharmacies 
in Florida. We need educational opportunities that prepare us 
to properly address prescription drug-seeking behaviors from 
the first day of practice. There is no grace period here. For 
many of us, our first patient encounter was a test of our 
ability to deny an unwarranted prescription.
    Thank you for championing the development of legislation to 
curb prescription drug abuse.

                                 <all>

</pre></body></html>
